HHS/OIG, Audit -"Review of Illinois Medicaid Disproportionate Share Hospital Payments to the University of Illinois
at Chicago Hospital,"(A-05-01-00099)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Illinois Medicaid Disproportionate Share Hospital Payments to the University of Illinois at Chicago Hospital," (A-05-01-00099)
October 13, 2004
Complete Text of Report is available in PDF format (513 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether disproportionate share hospital (DSH) payments
to the University of Illinois at Chicago (UIC) Hospital exceeded the hospital-specific limits imposed by the Social Security
Act.  We found that the State paid about $140.3 million (Federal share) in excess of UIC Hospitals costs of providing
inpatient and outpatient services to Medicaid and uninsured patients during State fiscal years 1997 through 2000.  The
excessive payments occurred because the State did not have effective procedures to ensure compliance with the hospital-specific
limits or with State plan and State Administrative Code requirements.  We recommended that the State (1) refund $140.3
million to the Federal Government, (2) compare annual Medicaid payments with the actual cost of providing services to Medicaid
and uninsured patients for all hospitals receiving DSH payments and, if applicable, make retroactive adjustments as required
by the State plan, including the recovery of any identified overpayments, and (3) provide clear guidelines on properly
reporting uncompensated charity care charges.